Washington, D.C. 20530

June 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Monique A. Lozoya v. United States of America,
S.Ct. No. 20-7900
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on April 28, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on July 8, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 9, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7900
LOZOYA, MONIQUE A.
USA

JAMES H. LOCKLIN
DEPUTY FEDERAL PUBLIC DEFENDER
321 EAST 2ND STREET
LOS ANGELES, CA 90012
213-894-2929
JAMES_LOCKLIN@FD.ORG
213-894-0081(Fax)

